Audit Report




OIG-11-015
SAFETY AND SOUNDNESS: Failed Bank Review of Bay National
Bank
November 05, 2010




Office of
Inspector General
Department of the Treasury
 
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                            November 05, 2010


             OIG-11-015

             MEMORANDUM FOR JOHN WALSH
                            ACTING COMPTROLLER OF THE CURRENCY
                            OFFICE OF THE COMPTROLLER OF THE CURRENCY

             FROM:                 Kieu T. Rubb /s/
                                   Director, Procurement and Manufacturing Audits

             SUBJECT:              Failed Bank Review of Bay National Bank


             This memorandum presents the results of our review of the failure of Bay National
             Bank (Bay). Bay opened in May 2000 and had a main office in Lutherville,
             Maryland, and one branch office in Salisbury, Maryland. The bank was a wholly
             owned subsidiary of Bay National Corporation, a bank holding company located in
             Lutherville, Maryland. The Office of the Comptroller of Currency (OCC) closed Bay
             and appointed the Federal Deposit Insurance Corporation (FDIC) as receiver on
             July 9, 2010. At March 31, 2010, the bank had $282.2 million in total assets.
             FDIC estimated that the loss to the Deposit Insurance Fund is $17.4 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Bay that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OCC reports of examination, and
             (3) interviewed OCC personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-015
Page 2

Causes of Bay’s Failure
The primary causes of Bay’s failure were its aggressive growth strategy, excessive
concentrations in higher-risk construction and development loans, and insufficient
capital relative to the risk level of its loans. These conditions were exacerbated by the
downturn in residential real estate values in Maryland, Bay’s market. In addition, risk
management activities at Bay were inadequate. For example, liberal underwriting
standards allowed originations of loans without proper analysis of the borrowers’
stated income or their ability to sustain a project should it be delayed. Bay’s asset
quality began deteriorating in late 2007, resulting in significant increases in its problem
assets and loan losses. In turn, these loan losses significantly diminished earnings and
capital and, ultimately, led to Bay’s failure.


Conclusion
Based on our review of the causes of Bay’s failure and the grounds identified by
OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure or the supervision exercised by OCC.
Accordingly, we have determined that a more in-depth review of the bank’s failure
by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with the primary causes of Bay’s failure
summarized in this memorandum and had no concerns with our determination that
a more in-depth review of the bank’s failure by our office is not warranted. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5904 or
Katherine Johnson, Audit Manager, at (202) 927-8783.


Attachments
         OIG-11-015

       Attachment 1
Management Response
                                                   OIG-11-015

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
